=
|

(OCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1381
MATTHEW FOX, ET AL.,
Petitioners,
v.
CHARLES A. SUMMERS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE AMICUS CURIAE BRIEF AND BRIEF OF AMICUS CURIAE BUCKEYE STATE
SHERIFFS’ ASSOCIATION IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
5213 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of May, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska
ah. rene oe Keone. Q. Lleoa Qudraw Che

My Comm, Exp. September 5, 2023
Affiant

 

Notary Public 40926
